                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: I031 10054
                                                                                 11          Page 1 of 1



         This matter was open as part of Program Income review of conference grants. Initial review
         identified that the grantee' provided funding of registration fees for seven scientists who worked
         for Federal agencies to attend an international scientific conference. Review of the documents
         and checks with the agencies revealed that six of the scientists are contract employees and one
         scientist is a Federal employee.

         NSF7s"ADMINISTRATION OF NSF CONFERENCE OR GROUP TRAVEL AWARD -
         GRANT SPECIAL CONDITIONS (FL 26)," states that Federal employees may be compensated
         for their travel expenses to attend the conference/workshop provided that prior written approval
         is obtained Erom their agency. Contract employees are not Federal employees, therefore, only the
         Federal employee was required to obtain agency approval.

         We found that the Federal employee received appropriate agency approval.

         Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
